                         Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                      42409

DEPARTMENT OF HEALTH AND                     collections referenced above, E-mail          ADDRESSES:    Please mail or deliver your
HUMAN SERVICES                               your request, including your address          written comments, recommendations
                                             and phone number, to                          and suggestions to the following
Health Care Financing Administration         Paperwork@hcfa.gov, or call the Reports       address:
                                             Clearance Office on (410) 786–1326.              Office of Inspector General,
[Document Identifier: HCFA–R–246]
                                             Written comments and                          Department of Health and Human
Agency Information Collection                recommendations for the proposed              Services, Attention: OIG–3–CPG, Room
Activities: Proposed Collection;             information collections must be mailed        5246, Cohen Building, 330
Comment Request                              within 60 days of this notice directly to     Independence Avenue, SW,
                                             the HCFA Paperwork Clearance Officer          Washington, DC 20201.
  In compliance with the requirement         designated at the following address:             We do not accept comments by
of section 3506(c)(2)(A) of the              HCFA, Office of Information Services,         facsimile (FAX) transmission. In
Paperwork Reduction Act of 1995, the         Security and Standards Group, Division        commenting, please refer to file code
Health Care Financing Administration         of HCFA Enterprise Standards,                 OIG–3–CPG. Comments received timely
(HCFA), Department of Health and             Attention: John Rudolph, Room N2–14–          will be available for public inspection as
Human Services, is publishing the            26 7500, Security Boulevard, Baltimore,       they are received, generally beginning
following summary of proposed                Maryland 21244–1850.                          approximately 3 weeks after publication
collections for public comment.                                                            of a document, in Room 5541 of the
Interested persons are invited to send         Dated: July 27, 1998.
                                                                                           Office of Inspector General at 330
comments regarding the burden                John P. Burke III,                            Independence Avenue, SW,
estimate or any other aspect of this         HCFA Reports Clearance Officer, Division of   Washington, DC, on Monday through
collection of information, including any     HCFA Enterprise Standards, Security and       Friday of each week from 8:00 a.m. to
                                             Standards Group, Health Care Financing
of the following subjects: (1) the                                                         4:30 p.m.
                                             Administration.
necessity and utility of the proposed                                                      FOR FURTHER INFORMATION CONTACT:
                                             [FR Doc. 98–21109 Filed 8–6–98; 8:45 am]
information collection for the proper                                                      Christine Saxonis, Office of Counsel to
                                             BILLING CODE 4120–03–P
performance of the agency’s functions;                                                     the Inspector General, (202) 619–2078,
(2) the accuracy of the estimated                                                          or Joel Schaer, Office of Counsel to the
burden; (3) ways to enhance the quality,                                                   Inspector General, (202) 619–0089.
                                             DEPARTMENT OF HEALTH AND
utility, and clarity of the information to                                                 SUPPLEMENTARY INFORMATION: The
                                             HUMAN SERVICES
be collected; and (4) the use of                                                           creation of compliance program
automated collection techniques or           Office of Inspector General                   guidance has become a major initiative
other forms of information technology to                                                   of the OIG in its effort to engage the
minimize the information collection          Solicitation of Information and               private health care community in
burden.                                      Recommendations for Developing OIG            addressing and fighting fraud and abuse.
  Type of Information Request:               Compliance Program Guidance for the           Recently, the OIG has developed and
Extension of Currently Approved              Durable Medical Equipment Industry            issued compliance program guidance
Collection.                                                                                directed at various segments of the
  Title of Information Collection: HEDIS     AGENCY: Office of Inspector General
                                             (OIG), HHS.                                   health care industry.1 This guidance is
3.0 (Health Plan Data and Information                                                      designed to provide clear direction and
Set) CAHPS (Consumer Assessment of           ACTION: Notice.
                                                                                           assistance to specific sections of the
Health Plans Study) Survey and                                                             health care industry that are interested
                                             SUMMARY:   This Federal Register notice
Supporting Regulations 42 CFR 417.470,                                                     in reducing and eliminating fraud and
                                             seeks the input and recommendations of
417.126.                                                                                   abuse within their organizations.
                                             interested parties into the OIG’s
  Form Number: HCFAR–246 (OMB                                                                 The guidances represent the OIG’s
                                             development of a compliance program
approval #: 0938–0732).                                                                    suggestions on how providers can best
  Use: This collection effort (CAHPS)        guidance for the durable medical
                                             equipment (DME) industry, its providers       establish internal controls and
will be used to hold the Medicare                                                          monitoring to correct and prevent
managed care industry accountable for        and suppliers. Many providers and
                                             provider organizations have expressed         fraudulent activities. The contents of the
the quality of care they are delivering.                                                   guidances should not be viewed as
This requirement will allow HCFA to          an interest in better protecting their
                                             operations from fraud and abuse.              mandatory for providers or as an
obtain the information necessary for the                                                   exclusive discussion of the advisable
proper oversight of the program. It is       Previously, the OIG has developed
                                             compliance program guidances for              elements of a compliance program.
critical to HCFA’s mission that we                                                            In an effort to formalize the process by
collect and disseminate information that     hospitals, clinical laboratories and home
                                             health agencies. In order to provide          which the OIG receives public
will help beneficiaries choose among                                                       comments in connection with
plans, contribute to the improved            clear and meaningful guidance to those
                                             segments of the health care industry          compliance program guidances, we are
quality of care through identification of                                                  seeking, through this Federal Register
quality improvement opportunities, and       involved in the supply and distribution
                                             of DME, we are soliciting comments,           notice, formal input from all interested
assist HCFA in carrying out its                                                            parties as the OIG begins developing
responsibilities.                            recommendations and other suggestions
                                             from concerned parties and                    compliance program guidance directed
  Frequency: Annually.                                                                     at the DME industry, its providers and
  Affected Public: Businesses or other       organizations on how best to develop
                                             compliance program guidance and               suppliers. The OIG will give
for profit, Individuals or Households.
                                             reduce fraud and abuse within the DME         consideration to all comments,
  Number of Respondents: 150,240.
  Total Annual Responses: 150,240.           industry.                                     recommendations and suggestions
  Total Annual Hours Requested:              DATES: To assure consideration,
                                                                                             1 62 FR 9435 (March 3, 1997) for clinical
49,579                                       comments must be delivered to the             laboratories and 63 FR 8987 (February 23, 1998) for
  To obtain copies of the supporting         address provided below by no later than       hospitals. The guidances can also be found on the
statement for the proposed paperwork         5 p.m. on September 21, 1998.                 OIG web site at http:/www.dhhs.gov/progorg/oig.
42410                    Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

submitted and received by the time          several provider groups and industry          • Responding promptly to detected
frame indicated above.                      representatives. Many home health care      offenses and developing corrective
   We anticipate that the DME guidance      providers have expressed interest in        action.
will contain the seven elements that we     better protecting their operations from       Using these seven basic elements, the
consider necessary for a comprehensive      fraud and abuse through the adoption of     OIG has identified specific areas of
compliance program. These seven             a voluntary compliance program. The         home health operations that, based on
elements have been discussed in our         OIG has previously developed and            prior Government enforcement efforts,
previous guidances and include:             published compliance program                have proven to be vulnerable to fraud
   • The development of written             guidances focused on the clinical           and abuse. The development of this
policies and procedures;                    laboratory and hospital industries (62      Compliance Program Guidance for
   • The designation of a compliance        FR 9435, March 3, 1997 and 63 FR 8987,      Home Health Agencies has been further
officer and other appropriate bodies;       February 23, 1998, respectively). We        enhanced by input from various home
   • The development and                    believe that the development of this        health trade associations and others
implementation of effective training and    compliance program guidance for the         with expertise in the home health
education;                                  home health industry will continue as a     industry. Regardless of a home health
   • The development and maintenance        positive step towards promoting a           agency’s size and structure—whether
of effective lines of communication;        higher level of ethical and lawful
   • The enforcement of standards                                                       large or small, urban or rural, for-profit
                                            conduct throughout the entire health        or non-profit—the OIG believes that
through well-publicized disciplinary        care community.
guidelines;                                                                             every home health agency can and
                                            FOR FURTHER INFORMATION CONTACT:            should strive to accomplish the
   • The use of audits and other            Michael Shaw, Office of Counsel to the
evaluation techniques to monitor                                                        objectives and principles underlying all
                                            Inspector General, (202) 619–2078.          of the compliance policies and
compliance; and
   • The development of procedures to       SUPPLEMENTARY INFORMATION: The              procedures set forth in this
respond to detected offenses and to         creation of compliance program              accompanying guidance. Like the
initiate corrective action.                 guidances has become a major initiative     previously-issued compliance guidances
   We would appreciate specific             of the OIG in its efforts to engage the     for hospitals and clinical laboratories,
comments, recommendations and               health care community in combating          adoption of the Compliance Program
suggestions on (1) risk areas for the DME   fraud and abuse. In formulating             Guidance for Home Health Agencies set
industry, and (2) aspects of the seven      compliance guidances, the OIG has           forth below will be voluntary.
elements contained in previous              worked closely with the Health Care           A reprint of the OIG’s Compliance
guidances that may need to be modified      Financing Administration, the               Program Guidance for Home Health
to reflect the unique characteristics of    Department of Justice and various           Agencies follows.
the DME industry. Detailed                  sectors of the health care industry to
justifications and empirical data           provide clear guidance to those             Office of Inspector General’s
supporting suggestions would be             segments of the industry that are           Compliance Program Guidance for
appreciated. We are also hopeful that       interested in reducing fraud and abuse      Home Health Agencies
any comments, recommendations and           within their organizations. The first of    I. Introduction
input be submitted in a format that         these compliance program guidances
addresses the above topics in a concise     focused on clinical laboratories and was       The Office of Inspector General (OIG)
manner, rather than in the form of          published in the Federal Register on        of the Department of Health and Human
comprehensive draft guidance that           March 3, 1997 (62 FR 9435). Building on     Services (HHS) continues in its efforts to
mirrors previous guidance.                  basic elements of the first issuance, the   promote voluntarily developed and
                                            second compliance program guidance          implemented compliance programs for
  Dated: July 28, 1998.                     developed by the OIG focused on the         the health care industry. The following
June Gibbs Brown,                           hospital industry and was published in      compliance program guidance is
Inspector General.                          the Federal Register on February 23,        intended to assist home health
[FR Doc. 98–20965 Filed 8–6–98; 8:45 am]    1998 (63 FR 8987). The development of       agencies 1 and their agents and
BILLING CODE 4150–04–P                      these types of compliance program           subproviders (referred to collectively in
                                            guidance is based on our belief that a      this document as ‘‘home health
                                            health care provider can use internal       agencies’’) develop effective internal
DEPARTMENT OF HEALTH AND                    controls to more efficiently monitor        controls that promote adherence to
HUMAN SERVICES                              adherence to applicable statutes,           applicable Federal and State law, and
                                            regulations and program requirements.       the program requirements of Federal,
Office of Inspector General                    The OIG has identified seven             State, and private health plans.2 The
                                            fundamental elements to an effective        adoption and implementation of
Publication of the OIG Compliance
                                            compliance program. They are:               voluntary compliance programs
Program Guidance for Home Health
                                               • Implementing written policies,         significantly advance the prevention of
Agencies
                                            procedures and standards of conduct;        fraud, abuse, and waste in these health
AGENCY: Office of Inspector General            • Designating a compliance officer       care plans while at the same time
(OIG), HHS.                                 and compliance committee;                   further the fundamental mission of all
ACTION: Notice.                                • Conducting effective training and
                                            education;                                    1 The term ‘‘home health agency’’ is applied in

SUMMARY:    This Federal Register notice       • Developing effective lines of          this document as defined in section 1861(o) of the
sets forth the recently issued              communication;                              Social Security Act, 42 U.S.C. 1395x(o).
Compliance Program Guidance for                • Enforcing standards through well­        2 This Compliance Program Guidance for Home

                                                                                        Health Agencies is not intended to address issues
Home Health Agencies developed by the       publicized disciplinary guidelines;         specific to suppliers of durable medical equipment,
Office of Inspector General (OIG) in           • Conducting internal monitoring and     infusion therapy, and other services typically
cooperation with, and with input from,      auditing; and                               provided in the home setting.
